          United States Government
   National Labor Relations Board
              Office of Inspector General




SEMIANNUAL

REPORT
APRIL 1, 2013 – sEPTEMBER 30, 2013




                    NLRB Semiannual report   1
TABLE OF
contents
Executive Summary..........................................................................1

Agency Profile...................................................................................2

Office of Inspector General...........................................................4

Audit Program...................................................................................5

Investigations Program....................................................................8

Legislation, Regulations and Policy............................................. 10

Liaison Activities............................................................................ 11

Information Required by the Act................................................ 12

Audit Reports by Subject Matter................................................. 13

Appendix......................................................................................... 15
EXECUTIVE
SUMMARY

I
     hereby submit the Semiannual Report for the period April 1, 2013 –
     September 30, 2013. This report summarizes the major activities and
     accomplishments of the Office of Inspector General of the National
Labor Relations Board and its submission is in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Inspector General Act
requires that the Chairman transmit this report to the appropriate committees
or subcommittees of Congress within 30 days of its receipt.
In the audit program, the Office of Inspector General issued one audit
report, one inspection report, and a memorandum identifying the Agency’s
top management and performance challenges. In the investigations program,
the Office of Inspector General processed 221 contacts, initiated 7 cases,
closed 13 cases, and issued 2 investigative reports. Our investigative efforts
resulted in one removal, two separations while the investigation was pending,
and one suspension. Two matters were referred for prosecution.
I appreciate the support of all Agency employees in achieving the
accomplishments set forth in this report.




                                             David Berry
                                             Inspector General
                                             October 30, 2013




                                             NLRB Semiannual report          1
AGENCY
profile
    The National Labor Relations Board (NLRB or Agency) is an independent
    Federal agency established in 1935 to administer the National Labor
    Relations Act. The National Labor Relations Act is the principal labor
    relations law of the United States, and its provisions generally apply
    to private sector enterprises engaged in, or to activities affecting,
    interstate commerce. NLRB jurisdiction includes the U.S. Postal Service;
    however, other government entities, railroads, and airlines are not
    within NLRB’s jurisdiction.


The NLRB seeks to serve the public         Board primarily acts as a quasi-
interest by reducing interruptions         judicial body in deciding cases
in commerce caused by industrial           on formal records. The General
strife. It does this by providing          Counsel investigates and prosecutes
orderly processes for protecting           unfair labor practices before
and implementing the respective            administrative law judges, whose
rights of employees, employers,            decisions may be appealed to the
and unions in their relations with         Board, and, on behalf of the Board,
one another. The NLRB has two              conducts secret ballot elections to
principal functions: (1) to determine      determine whether employees wish
and implement, through secret ballot       to be represented by a union.
elections, the free democratic choice      The Board consists of the Chairman
by employees as to whether they            and four Members who are
wish to be represented by a union          appointed by the President with the
in dealing with their employers and,       advice and consent of the Senate.
if so, by which union; and (2) to          Board Members serve staggered
prevent and remedy unlawful acts,          terms of 5 years each. The General
called unfair labor practices, by          Counsel is also appointed by the
either employers or unions.                President with the advice and
NLRB authority is divided by law           consent of the Senate and serves
and delegation. The five-member            a term of 4 years.

2    NLRB Semiannual report
Seated left to right: Harry I. Johnson, III, Philip A. Miscimarra, Mark Gaston Pearce, Kent Y. Hirozawa, and Nancy J. Schiffer



At the beginning of this reporting                                 NLRB Headquarters is located at
period, the Board consisted of                                     1099 14th Street, NW, Washington,
Chairman Mark Gaston Pearce and                                    DC. In addition to the Headquarters
Members Sharon Block, and Richard                                  building, employees are located in 51
Griffin. During the reporting period,                              field offices throughout the country.
the President nominated and the                                    Three satellite offices for the
Senate confirmed Chairman Pearce                                   administrative law judges are located
for an additional term as a Member                                 in Atlanta, San Francisco, and New
and designated Member Pearce to                                    York City. In December 2012, the
continue to serve as the Chairman.                                 Board approved a reorganization
The President also nominated                                       of the field offices. As a result of
and the Senate confirmed Kent Y.                                   that reorganization, there were
Hirozawa, Harry I. Johnson, III,                                   28 Regional Offices, 16 Resident
Philip A. Miscimarra, and Nancy J.                                 Offices, and 7 Subregional Offices.
Schiffer as Members. Acting General                                In March 2013, the Acting General
Counsel Lafe Solomon continued                                     Counsel proposed additional
to serve in that position during the                               reorganizing of the field offices
reporting period.                                                  that maintained the number of
During Fiscal Year (FY) 2013, the                                  field offices at 51, but reduced the
NLRB operated under a series of                                    number of Regional Offices to 26
Continuing Resolutions that limited                                by designating two Regional Offices
funding at the FY 2012 appropriation                               to be Subregional Offices. In July
level. In March, that level of funding                             2013, the Board approved the Acting
was reduced by rescission and the                                  General Counsel’s proposal.
Governmentwide sequestration.                                      Additional information about
The functional funding level of the                                the NLRB can be found at
NLRB was $263,748,933.                                             www.NLRB.gov.


                                                                         NLRB Semiannual report                            3
OFFICE OF
INSPECTOR GENERAL
    NLRB established the Office of Inspector General (OIG) pursuant to
    the 1988 amendments to the Inspector General Act of 1978 (IG Act).



Resources
During the reporting period, the
OIG received sufficient funds to
maintain its programs. In addition
to the Inspector General, the OIG
consists of a Counsel/Assistant
Inspector General for Investigations,
an Assistant Inspector General for
Audits, and three auditors. One
auditor position is vacant.




4   NLRB Semiannual report
AUDIT
Program
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate audits relating to program operations of the
   Agency. During the reporting period, the OIG issued one audit report,
   one inspection report, and a memorandum identifying the Agency’s top
   management and performance challenges.


Reports Issued                             followed. Those policies included
We issued Audit Report OIG-                recording the correct filing
AMR-68-13-01, Compliance with              date, following the procedural
Unfair Labor Practice Procedures,          requirements for affidavits,
on June 27, 2013. The objective            meeting the time requirements for
of this audit was to determine             lead affidavits, and documenting
whether Regional Offices were              significant steps in processing
processing unfair labor practice cases     unfair labor practice cases. Overall
in compliance with the Agency’s            we found that the Quality Review
processes and procedures as outlined       Program lacked effectiveness in
in the Casehandling Manual. We were        ensuring the Regions’ compliance
also concerned with the effectiveness      with the Casehandling Manual’s
of the Division of Operations-             procedural requirements related
Management’s Quality Review                to processing unfair labor practice
Program. To conduct this review,           cases. Based on our findings, we
we randomly selected a statistical         made 12 recommendations that we
sample of cases from seven Regional        believe will improve management
Offices. The selected case files           controls over the unfair labor
were then tested against procedural        practice casehandling process.
requirements of the Casehandling           The Division of Operations-
Manual that spanned from the               Management commented that,
receipt of the charge through the          although they agree that it is
filing of exceptions with the Board.       important for the Regions to follow
In general, we identified several          the casehandling procedures and
policies that were not being               that they agree with many of the

                                                NLRB Semiannual report            5
                                        request was in two parts. To
                                        address the request, we initiated an
                                        inspection to identify the existing
                                        climate change requirements that
                                        apply to the NLRB and to assess
                                        whether the NLRB was meeting
                                        those requirements. Our scope was
                                        the NLRB’s FY 2012 and 2013
                                        climate change efforts.
                                        We found that the NLRB complies
                                        with many of the requirements
                                        that relate to climate change. For
                                        example, the Agency includes
                                        green purchasing requirements
                                        in its guidance to purchase card
                                        holders and encourages Regional
recommendations set forth in            Offices to lease alternative fuel or
the report, it is important to keep     hybrid vehicles. Our inspection,
in perspective the differences in       however, found that the Agency
approach and emphasis of their          had not properly appointed a Senior
Quality Review Program and the          Sustainability Officer until the week
audit. The Division of Operations-      that our draft report was issued and
Management also noted that the          that while the Agency has many
audit was conducted during the          policies in place, monitoring of
transition to the Next Generation       compliance with the policies does
Case Management System and that         not always occur. In response to our
the transition may have contributed     draft report, the Acting Director
to the audit findings related to data   of Administration stated that an
entry.                                  employee was assigned to manage
                                        the Agency’s fleet of vehicles.
We issued Inspection Report OIG-
INS-67-13-01, Compliance with           We issued a memorandum
Climate Change Initiatives, on          identifying the Agency’s Top
July 22, 2013. The OIG received         Management and Performance
a letter from the Congressional         Challenges on September 30, 2013.
Bicameral Task Force on Climate         The OIG developed a list of what
Change requesting an assessment         it considers to be the most serious
of the actions of the NLRB in           management and performance
confronting the growing threat of       challenges facing the NLRB. The
climate change. The Task Force’s        challenges are:

6   NLRB Semiannual report
1. Managing in the current political   Purchase Cards, OIG-
   environment;                        AMR-65-11-03, was issued on
2. Reorganizing and consolidating      September 30, 2011. Management
   operations;                         implemented three of the five
                                       recommendations made in the
3. Implementing the Next               report.
   Generation Case Management
   System and seizing opportunities    Audit of the NLRB Fiscal Year
   to create more productive           2011 Financial Statements,
   and efficient procedures and        OIG-F-16-12-01, was issued on
   organizations;                      December 14, 2011, and we reached
                                       agreement with management on
4. Managing the Agency’s financial     that date. During this reporting
   resources;                          period, management completed
5. Managing the Agency’s               its final action on the seven
   procurement process to ensure       recommendations.
   compliance with the Federal         Internal Controls in the Office of
   Acquisition Regulation;             Equal Employment Opportunity,
6. Managing the NLRB’s human           OIG-AMR-67-12-01, was issued
   capital;                            on January 9, 2012, and we reached
7. Maintaining the Agency’s            agreement with management on
   institutional knowledge;            March 9, 2012. Management has
                                       not completed action on the five
8. Managing the Agency’s               recommendations.
   information technology resources
   in a manner that achieves           End-of-the-Year Spending,
   efficiency and security; and        OIG-AMR-70-12-02, was issued on
                                       September 17, 2012, and we reached
9. Implementing audit findings         agreement with management on that
   in a timely manner.                 date. Management implemented one
Audit Follow-up                        of the two recommendations made
Agreed-upon actions were not           in the report.
completed within 1 year on five
audit reports.
Official Time for Union Activities,
OIG-AMR-62-10-01, was issued on
December 11, 2009, and we reached
agreement with management on that
date. Management implemented one
of the four recommendations made
in the report.

                                           NLRB Semiannual report       7
INVESTIGATIONS
PROGRAM
     The Inspector General is to provide policy direction for and is to
     conduct, supervise, and coordinate investigations relating to the
     programs and operations of the Agency. During this reporting period,
     we processed 221 contacts, initiated 7 cases, closed 13 cases, and
     issued 2 investigative reports. Our investigative efforts resulted in one
     removal, two separations while the investigation was pending, and one
     suspension. Two matters were referred for prosecution.

                                              Privacy Act System of Records and
    Case Workload    Contacts Processed
                                              that an employee failed to promptly
 Open
               15 Received              221   notify management. The matter was
 (4/1/2013)                                   referred to the local U.S. Attorney’s
 Initiated      7
                    Initiated
                                         6    Office. Prosecution was declined.
                    Investigation             The employee was removed from
                    Opened Case ­­­—          Federal employment. OIG-I-487
 Closed        13 Referred to            0
                    Agency                    Investigated an allegation that an
                                              employee failed to properly process
 Open               Non-Investigative         an office’s time and attendance
 (9/30/2013)
                9   Disposition
                                        215
                                              records and that the employee
                                              did not safeguard documents
Investigative Highlights                      from a Privacy Act System of
Management issued a 7-day                     Records. During the investigation,
suspension to an employee who                 the employee separated from the
used the Agency’s information                 Agency. OIG-I-488
technology resources and official             Investigated and substantiated
time for activities related to outside        an allegation that a contractor’s
employment. The investigative                 former employee improperly
report was issued in a prior                  accessed the Agency’s information
reporting period. OIG-I-464                   technology network and deleted
Investigated an allegation of the             Agency records. The investigation
loss or theft of documents from a             was coordinated with the Federal
8     NLRB Semiannual report
                                        information should be provided
                                        to the Security Officer for review
                                        during the background/suitability
                                        investigative process. OIG-I-491
                                        Investigated an allegation that an
                                        employee used a Government
                                        computer to view sexually explicit
                                        material. During the investigation,
                                        the employee separated from the
                                        Agency. OIG-I-494
                                        Hotline
                                        Employees and members of the
                                        public with information on fraud,
                                        waste, and abuse are encouraged
Bureau of Investigation and             to contact the OIG. A log of calls
reported to the local U.S. Attorney’s   to a nationwide toll-free number
office. Prosecution was declined.       or the office numbers and a log of
OIG-I-489                               mail, e-mail, and facsimile messages
                                        are maintained. All information
Investigated allegations that
                                        received, regardless of the method
information from an administrative
                                        used, is referred to as Hotline
investigation was improperly
                                        contacts. Hotline contacts are
released and that the investigator
                                        analyzed to determine if further
misled witnesses. Although we
                                        inquiry or action is warranted.
found that the allegations were
not substantiated, we issued a          During this reporting period, the
memorandum addressing Privacy           OIG received 221 Hotline contacts,
Act procedures that should              of which 67 were telephone calls or
be addressed during future              walk-ins and 154 were in writing.
administrative investigations.          Most Hotline contacts are from
OIG-I-490                               members of the public seeking help
Investigated allegations that an        on an employment-related problem
employee was improperly seeking         or issues outside OIG and/or
employment from a prohibited            Agency jurisdiction. As appropriate,
source, made improper hiring            the OIG refers those Hotline
decisions, and was engaged in           contacts to a NLRB Regional
outside activity during normal duty     Office; local, state, or Federal
hours. We found that the allegations    agencies; or private resources
were not substantiated, but that the    to provide assistance.


                                            NLRB Semiannual report             9
LEGISLATION, REGULATIONS
AND POLICY
   The responsibilities and duties of an OIG include reviewing existing
   and proposed legislation and regulations relating to the programs and
   operations of its agency and making recommendations in the semiannual
   reports concerning the impact of such legislation or regulations on
   the economy and efficiency in the administration of programs and
   operations administered or financed by the agency or the prevention
   and detection of fraud and abuse in such programs and operations.


Legislation                             •H.R. 2346, Secret Ballot
During FY 2013, there were 13            Protection Act;
legislative proposals introduced in     •H.R. 2347, Representation Fairness
Congress that would amend the            Restoration Act;
National Labor Relations Act or
                                        •H.R. 2674, Job Creation Act of 2013;
otherwise impact the programs
and operations of the Agency:           •S. 180, NLRB Freeze Act of 2013;
•H.R. 557, Advice and Consent           •S. 188, Advice and Consent
 Restoration Act;                        Restoration Act;
•H.R. 795, Protecting American Jobs     •S. 190, Restoring the Constitutional
 Act;                                    Balance of Power Act of 2013;
•H.R. 976, To declare that certain      •S. 850, Preventing Greater
 Agency actions have no force or         Uncertainty in Labor-Management
 effect and prohibits further action     Relations Act; and
 by the Board until the matters         •S. 1166, Representation Fairness
 involving the appointment of the        Restoration Act.
 Board Members are resolved;
                                        Regulations
•H.R. 1120, Preventing Greater          The Counsel to the Inspector
 Uncertainty in Labor-Management        General is an advisory member
 Relations Act;                         of the Agency’s Rules Revision
•H.R. 1815, Union Coercion              Committee that develops changes to
 Prevention Act;                        the Agency’s procedural regulations.
10 NLRB Semiannual report
LIAISON
ACTIVITIES
   The Inspector General is to recommend policies for, and is to conduct,
   supervise, or coordinate relationships between the Agency and other
   Federal agencies, state and local governmental agencies, and non-
   governmental entities. The Inspector General is to give particular
   regard to the activities of the Comptroller General of the United
   States. Similarly, we encourage OIG staff members to participate in
   Agency programs and activities.


Inspector General                        in the Council of Counsels to
Community                                Inspectors General.
The Inspector General is a member        Government
of the Council of the Inspectors         Accountability Office
General on Integrity and Efficiency      The IG Act states that each
(CIGIE). This organization consists      Inspector General shall give
of Inspectors General at the Federal     particular regard to the activities
Government’s departments and             of the Comptroller General of
agencies. The Inspector General          the United States, as head of the
sits as a member of the CIGIE            Government Accountability Office
Audit Committee and the CIGIE            (GAO), with a view toward avoiding
Information Technology Committee.        duplication and ensuring effective
The Inspector General is also the        coordination and cooperation.
CIGIE representative to the Chief
Financial Officers Council.              During this reporting period,
                                         we initiated audit OIG-AMR-72,
The Assistant Inspector General          Fiscal Year 2013 Sequestration –
for Audits, or designated auditors,      Preparation, Implementation,
participated in the Federal Audit        and Impact. Prior to beginning
Executive Council, Financial             our fieldwork, we engaged in
Statement Audit Network, and the         coordination with GAO.
Interagency Fraud and Risk Data
Mining Group. The Counsel to the
Inspector General participates

                                             NLRB Semiannual report 11
INFORMATION
REQUIRED BY THE ACT
Certain information and statistics       (10) There are no audit reports
based on the activities accomplished     issued before the commencement
during this period are required by       of the reporting period for which
section 5(a) of the IG Act to be         no management decision has been
included in the semiannual reports.      made by the end of the reporting
These are set forth below:               period.
Section 5(a)                             (11) No significant revised
(1), (2), (7) OIG did not identify       management decisions were made
significant problems, abuses             during the reporting period.
or deficiencies relating to the          (12) There are no significant
administration of programs. For the      management decisions with which
purpose of this section, we used the     I am in disagreement.
definition of significant as set forth
                                         (13) There is no information to
in the Federal Managers’ Financial
                                         report under the requirements
Integrity Act.
                                         of section 05(b) of the Federal
(3) Except as noted on page 7,           Financial Management Improvement
corrective action has been completed     Act of 1996.
on all significant recommendations
                                         (14) (15) A peer review of the
that were described in the previous
                                         audit program was conducted
semiannual reports.
                                         by the National Credit Union
(4) Two cases were referred to           Administration OIG. The peer
prosecutorial authorities.               review report was issued on October
(5) No reports were made to the          31, 2011. A copy of the peer review
Board that information or assistance     report is at the appendix. There were
requested by the Inspector General       no recommendations. The OIG’s
was unreasonably refused or not          investigative program is not subject
provided.                                to the peer review requirement.
(6) A listing by subject matter is       (16) The OIG did not conduct a
located on page 13.                      peer review of any other entities
                                         during this reporting period.
(8), (9) No report issued during
this period had questioned costs.
See Table 1.

12 NLRB Semiannual report
audit REPORTS BY
SUBJECT MATTER
                                                                              Funds
Subject Matter                         Questioned      Unsupported
                                                                           To Be Put To
and Title                                Costs            Costs
                                                                            Better Use

Field Investigations
Compliance with Unfair                     0                0                      0
Labor Practice Procedures
OIG-AMR-68-13-01




Table 1. Reports With                                               Dollar Value
                                           Number of
Questioned Costs                            Reports      Questioned        Unsupported
                                                           Costs              Costs
A. For which no management
  decision has been made by the                0                0                  0
  commencement of the period
B. Which were issued during
   the reporting period
                                               0                0                  0

Subtotals (A+B)                                0                0                  0
C. For which a management decision
  was made during the reporting                0                0                  0
  period

(i) Dollar value of disallowed costs           0                0                  0
(ii) Dollar value of costs not
      disallowed
                                               0                0                  0
D. For which no management
  decision has been made by the                0                0                  0
  end of the reporting period

Reports for which no management
decision was made within six months            0                0                  0
of issuance




                                                       NLRB Semiannual report 13
Table 2. Reports with
Recommendations that                    Number of   Funds To Be Put
                                         Reports     To Better Use
Funds be Put to Better Use
A. For which no management
   decision has been made by the           0              0
   commencement of the period

B. Which were issued during the
   reporting period
                                           0              0

Subtotals (A+B)                            0              0
C. For which a management decision
   was made during the reporting           0              0
   period

(i) Dollar value of recommendations
    that were agreed to by management
                                           0              0

(ii) Dollar value of recommendations
     that were not agreed to by            0              0
     management

D. For which no management decision
   has been made by the end of the         0              0
   reporting period

Reports for which no management
decision was made within six months        0              0
of issuance




14 NLRB Semiannual report
   Appendix
APPENDIX




DRAFT
              NLRB Semiannual report 15
DRAFT
  16 NLRB Semiannual report
DRAFT

        NLRB Semiannual report 17
 Office of Inspector General
National Labor Relations Board
 1099 14th Street, NW, Suite 9820
     Washington, DC 20570


         (202) 273-1960
         (800) 736-2983
    OIGHOTLINE@nlrb.gov
       Fax (202) 273-2344
1099 14th Street, N.W.
Washington, D.C. 20570
